              TABLE OF CONTENTS

INSPECTOR GENERAL’S MESSAGE                  i
NCUA AND OFFICE OF INSPECTOR GENERAL
                                             1
  MISSION STATEMENTS
INTRODUCTION                                 2
NCUA ORGANIZATIONAL CHART                    5
NCUA HIGHLIGHTS                              6
FEDERALLY INSURED CREDIT UNIONS HIGHLIGHTS   13
LEGISLATIVE HIGHLIGHTS                       15
OFFICE OF THE INSPECTOR GENERAL              18
   AUDIT ACTIVITY                            20
   INVESTIGATIVE ACTIVITY                    29
   LEGISLATIVE AND REGULATORY REVIEWS        32
TABLE I – REPORTS WITH QUESTIONED COSTS      34
TABLE II – REPORTS WITH RECOMMENDATIONS
                                             35
  THAT FUNDS BE PUT TO BETTER USE
TABLE III – SUMMARY OF OIG ACTIVITY          36
INDEX OF REPORTING REQUIREMENTS              37
                                                                       My office is dedicated to maintaining the highest possible standards
                                                                       of professionalism and quality in its audits and investigations. I
                                                                       want to recognize the exemplary work of the auditors, investigators,
                                                                       and support staff who form the core of the NCUA OIG and are
                                                                       committed to promoting integrity and efficiency within the NCUA
                                                                       and its programs. With the recent retirement of one senior auditor
                                                                       on my staff, as well as the imminent retirement of our Director of
                                                                       Investigations, I look forward to their successors becoming a part of
              INSPECTOR GENERAL'S MESSAGE
                                                                       our quality-focused team which ensures excellence and trust in
                   TO THE NCUA BOARD
                                                                       service to the NCUA and the public interest.
                   AND THE CONGRESS
                                                                       Finally, the success of the NCUA OIG would not be possible without
                                                                       the collaborative work between my staff and agency managers to
I am pleased to present this Semiannual Report to Congress on the      address OIG findings and implement the recommendations made by
activities and accomplishments of the National Credit Union            my office. The Inspector General Act makes the OIG responsible
Administration (NCUA) Office of the Inspector General (OIG) for the    for keeping both the NCUA Board and the Congress fully and
period from October 1, 2007, to March 31, 2008. Our work reflects      currently informed about problems and deficiencies relating to
the legislative mandate of the Inspector General Act to promote the    NCUA programs and operations. This dual reporting responsibility
economy, efficiency, and effectiveness of NCUA programs and            makes our role unique at the NCUA and can present a number of
operations, and protect against fraud, waste, and abuse. The           challenges for establishing and maintaining an effective working
audits and investigations highlighted in this report demonstrate our   relationship with management. Although we are an integral part of
commitment to ensuring integrity and efficiency in the NCUA’s          the NCUA, unlike any other NCUA region or office, our legislative
programs and operations, and enhancing public confidence in its        underpinning requires us to operate as an independent and
regulatory process.                                                    objective oversight unit at the same time. We wish to thank agency
                                                                       management for working with us in an objective and professional
In addition to fulfilling our statutory mandate under the Inspector    manner to ensure that we fulfill our obligation to recognize and
General Act, we are also responsible for evaluating the NCUA’s         address the risks, priorities, and needs of the NCUA.
information security program and practices under the Federal
Information Security Management Act of 2002 (FISMA); reviewing
and reporting on privacy and data protection matters under Office
of Management and Budget (OMB) memoranda and guidance;
supervising the preparation of the agency-wide, annual financial
statement audit under the Federal Financial Management                                                  William A. DeSarno
Improvement Act (FMFIA) of 1996; and performing material loss                                           Inspector General
reviews of failed credit unions under the provisions of the Federal
Credit Union Act.

                                 i                                                                      ii
  OIG Semiannual Report                      March 2008             OIG Semiannual Report                     March 2008



                THE NCUA MISSION
                                                                                     INTRODUCTION
NCUA’s charge is to foster the safety and soundness of
federally insured credit unions and to better enable the credit   The National Credit Union Administration (NCUA) was
union community to extend the availability of financial           established as an independent, federal regulatory agency on
services for provident and productive purposes to all who         March 10, 1970. The agency is responsible for chartering,
seek such service, while recognizing and encouraging credit       examining, supervising, and insuring federal credit unions. It
unions’ historical emphasis on extension of financial services    also insures state-chartered credit unions that have applied
to those of modest means.                                         for insurance and have met National Credit Union Share
                                                                  Insurance requirements. The NCUA is funded by the credit
The NCUA’s mission is accomplished by managing the                unions it supervises and insures. As of December 31, 2007,
National Credit Union Share Insurance Fund in an efficient        the NCUA was supervising and insuring 5,036 federal credit
and prudent manner through an effective supervision               unions and insuring 3,065 state-chartered credit unions, a
program and a regulatory environment that encourages              total of 8,101 institutions. This represents a decline of 82
innovation, flexibility and continued focus on attracting new     federal and 55 state-chartered institutions since June 30,
members and improving financial service to existing               2007, for a total decline of 137 credit unions nationwide,
members.                                                          primarily as a result of mergers.

                                                                  The NCUA operates under the direction of a Board composed
                                                                  of three members. Board members are appointed by the
                                                                  President and confirmed by the Senate. They serve six-year
                                                                  terms. Terms are staggered, so that one term expires every
                                                                  two years. The Board is responsible for the management of
 THE OFFICE OF INSPECTOR GENERAL MISSION                          the National Credit Union Administration, including the NCUA
                                                                  Operating Fund, the Share Insurance Fund, the Central
The OIG promotes the economy, efficiency, and effectiveness       Liquidity Facility, and the Community Development Revolving
of NCUA programs and operations, and detects and deters           Loan Fund.
fraud, waste, and abuse, thereby supporting the NCUA’s
mission of monitoring and promoting safe and sound federally      The NCUA executes its program through its central office in
insured credit unions.                                            Alexandria, Virginia and regional offices in Albany, New York;
                                                                  Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and
We accomplish our mission by conducting independent audits,       Tempe, Arizona.       The NCUA also operates the Asset
investigations, and other activities, and by keeping the NCUA     Management and Assistance Center (AMAC) in Austin, Texas.
Board and the Congress fully and currently informed of our        Please refer to the NCUA organizational chart on page 5.
work.


                              1                                                                 2
  OIG Semiannual Report                     March 2008        OIG Semiannual Report                             March 2008




The NCUA Board adopted its 2008 budget of $158,631,447 on
November 15, 2007. The Full-Time Equivalent (FTE) staffing                            NCUA Budget Dollars
authorization for 2008 is 965, representing an increase of     Millions
seven FTEs from 2007.                                                160
                                                                     158
                                                                     156
                                                                     154
                                                                     152
                                                                     150
           Federally Insured Credit Unions                           148
                                                                     146
                                                                     144
                                                                     142
10000                                                                         2004     2005     2006     2007     2008


 8000 3593
               3442   3302        3173   3065
 6000
                                                                                      NCUA Authorized Staff
 4000
        5776   5572    5393       5189   5036
 2000                                                         1000
                                                               900
                                                               800
    0                                                FISCUs
                                                               700
        2003   2004    2005       2006   2007        FCUs      600
                                                               500
                                                               400
                                                               300
                                                               200
                                                               100
                                                                 0
                                                                           2004      2005     2006      2007      2008




                              3                                                                4
OIG Semiannual Report       March 2008   OIG Semiannual Report                       March 2008



NATIONAL CREDIT UNION ADMINISTRATION
          ORGANIZATIONAL CHART                            NCUA HIGHLIGHTS

                                          NCUA ISSUES STATEMENT IN RESPONSE TO
                                          TREASURY DEPARTMENT REPORT ON FINANCIAL
                                          REGULATORY STRUCTURE

                                          On March 31, 2008, Secretary Henry J. Paulson, Jr., of the
                                          United States Treasury Department, announced the
                                          release of the Department’s report entitled Blueprint for a
                                          Modernized Financial Regulatory Structure. In its media
                                          response to the report, the NCUA stated that the Executive
                                          Summary of the Treasury Report raised important issues
                                          about the optimal structure for governmental oversight of
                                          U.S. financial markets. While it agreed with the premise of
                                          the report that the ultimate objective of that oversight is “a
                                          sound and competitive financial services industry grounded
                                          in robust consumer protection and stable and innovative
                                          markets,” the NCUA stated its concerns that many
                                          consumer benefits of the credit union system would be
                                          threatened by any restructuring proposal that may blur the
                                          credit union charter and that eliminates the separate
                                          regulatory and insurance function for federally insured
                                          credit unions.

                                          The Agency stated its intent to conduct a detailed review
                                          of the report and indicated that it looks forward to a full
                                          and public dialogue on the issues raised. NCUA noted that
                                          its starting point for review will be the proposals reflected
                                          in NCUA Chairman JoAnn Johnson’s letter of November 20,
                                          2007, to Secretary Paulson, which recommended a
                                          continued separate charter and separate regulatory and
                                          insurance regime for credit unions, and recommended


                        5                                             6
OIG Semiannual Report                     March 2008              OIG Semiannual Report                      March 2008


 further strengthening of the credit union system through          federal credit union fulfillment of their mission and
 capital reform and other measures.                                purpose. The MSAP Report concluded that federal credit
                                                                   unions are succeeding in serving those they are chartered
                                                                   to serve, but given greater scope and opportunity, federal
                                                                   credit unions can improve the availability of financial
 CHAIRMAN JOHNSON TESTIFIES ON                                     services to low and moderate income consumers and those
 MODERNIZATION                                                     living in underserved areas. “The report identifies serious,
                                                                   specific recommendations to help federal credit
 On March 6, 2008, NCUA Chairman Johnson testified                 unions serve consumers across all parts of their fields of
 before the U.S. House Financial Services Committee                membership, consistent with the purpose set forth in the
 hearing on “The Need for Credit Union Regulatory Relief.”         preamble to the Federal Credit Union Act,” said Board
 The hearing provided a comprehensive examination of               Member Hyland, who was appointed Chair of the Outreach
 needed regulatory relief for credit unions, including a           Task Force in 2006.
 review of current legislative proposals and industry issues.
 In her testimony, Chairman Johnson highlighted two                The Outreach Task Force’s mission was threefold:
 paramount issues: prompt corrective action (PCA) reform
 and extending credit union service to consumers in                    1. Evaluate and determine the appropriateness of
 underserved areas. Chairman Johnson also noted the                       three recommendations from the agency’s 2006
 importance of strong, active NCUA supervision, stressing                  Member Service Assessment Pilot Program: A Study
 the Agency’s significant attention to guidance to credit                  of Federal Credit Union Service;
 unions in all types of lending, including member business             2. Assess the agency’s current role and efforts with
 lending.                                                                 respect to credit union service to their members;
                                                                          and
                                                                       3. Assess the recommendations made by the
                                                                          Government Accountability Office in its 2006 report
 HYLAND TRANSMITS OUTREACH TASK FORCE                                     (GAO-07-29).
 REPORT TO NCUA BOARD
                                                                The process involved an extensive review of NCUA policies and
 On February 26, 2008, NCUA Board Member Gigi Hyland            procedures in four areas: collection of membership profile and
 formally presented the Outreach Task Force Report to the       financial services data; senior executive compensation; low-
 NCUA Board. The Outreach Task Force was created by             income definition; and outreach. In addition, the Outreach
 NCUA Chairman Johnson subsequent to receiving the 2006         Task Force heard a variety of viewpoints through its six public
 Member Service Assessment Pilot (MSAP) Report, which           Town Hall meetings held in Cincinnati, OH, Boston, MA, New
 was the NCUA response to questions raised by Congress          Orleans, LA, Los Angeles, CA, Denver, CO, and Washington,
 and the Government Accountability Office regarding             DC from April through October 2007. Board Member Hyland

                            7                                                                 8
  OIG Semiannual Report                     March 2008             OIG Semiannual Report                    March 2008


also held dozens of other meetings to discuss the Task Force's   acknowledge the top 200–300 young leaders (age 40 or
efforts during her numerous visits around the country.           under) from around the world for their professional
                                                                 accomplishments, commitment to society, and potential to
                                                                 contribute to shaping the future of the world. The 2008
                                                                 awardees include 121 business leaders as well as leaders from
NCUA COMPLETES NEGOTIATIONS WITH NTEU                            government, academia, media, and society from 65 countries.
                                                                 Selected from a pool of 5,000 candidates, the Young Global
NCUA completed negotiations with the National Treasury           Leaders 2008 were chosen by a selection committee of 31
Employees Union (NTEU) Chapter 303 on the first collective       eminent international media leaders. Established in 2004, the
bargaining agreement for NCUA employees on Thursday,             Forum of Young Global Leaders give their time to task forces
November 1, 2007. The 3-year contract provides the               to initiate, develop, and drive innovative solutions on
framework of working conditions for the NCUA bargaining unit,    important, globally-oriented issues, including health, the
which includes field examiners and office employees. As an       environment, global governance and security, and
independent, federal agency, NCUA is one of the few agencies     development and poverty.
with the authority to bargain over compensation as well as
working conditions. The contract addresses travel, work
locations and work schedules, compensation and benefits, and
other areas of concern raised by both management and             BOARD MEMBER HYLAND URGES PROACTIVE,
bargaining unit representatives.                                 BALANCED APPROACH ON MORTGAGES

Under the terms of the agreement, NCUA bargaining unit           On December 6, 2007, NCUA Board Member Hyland testified
employees will retain flexible work schedules, local duty        before a House Financial Services Committee hearing on
stations, and relocation benefits.   While the negotiated        “Accelerating Loan Modifications, Improving Foreclosure
contract maintains a mobile workforce, it preserves              Prevention and Enhancing Enforcement.” At that hearing,
management’s right to assign and approve work in order to        Hyland assessed a series of federal and state proposals to
manage work flow and team schedules.                             improve the pace and volume of mortgage loan modifications,
                                                                 which may help troubled borrowers remain in their homes.
                                                                 She told Congress that NCUA favors a balanced approach to
                                                                 restructuring of home mortgages that allows for “prudent
VICE CHAIRMAN HOOD NAMED YOUNG GLOBAL                            workout arrangements” that “benefit both credit unions and
LEADER                                                           their members.”

The World Economic Forum named NCUA Vice Chairman                During her testimony, Board Member Hyland addressed H.R.
Rodney E. Hood a Young Global Leader 2008. The World             4178, legislation introduced by Representative Michael Castle
Economic Forum bestows the annual award to recognize and         (R-DE), which would provide for a safe harbor from legal

                              9                                                              10
  OIG Semiannual Report                       March 2008              OIG Semiannual Report                    March 2008


liability for mortgage market participants who modify               Mortgage Practices hearing included three panels—federal
mortgage loans according to certain criteria, an FDIC proposal      regulators and state banking supervisors, consumer groups,
in response to that bill, a California proposal between the state   and industry trade associations.
and large mortgage servicers, and a draft amendment to
increase penalties on lenders who engage in a pattern of            Commenting on mortgage reform legislation introduced by
unfair or abusive lending practices. Hyland articulated the         senior House Financial Services Committee Democrats,
Agency’s support of good faith attempts to facilitate loan          Chairman Johnson outlined credit unions’ role in the mortgage
modifications.                                                      lending market and NCUA’s mortgage lending guidance. She
                                                                    also offered NCUA views on the proposed legislation.
Citing NCUA and interagency guidance on subprime lending            Chairman Johnson called on the Committee to include NCUA in
that had been issued in the months prior to the hearing,            the rulemaking process set forth by this legislation.
Hyland underscored the importance of enhanced NCUA
oversight of this type of lending activity by credit unions. Her
testimony also noted that, while delinquencies and
foreclosures in credit union mortgage lending have increased,
they remain a very small part of overall credit union real
estate lending.

Hyland also offered suggestions regarding the several
proposals before the Committee, including broadening
language to include FHA as well as VA loans in a definition of
mortgages qualified for certain workout plans, extending the
window for workouts and modifications from 6 to 12 months,
and conforming a definition of “reasonably foreseeable
default” to one used by NCUA and other regulators in lending
guidance issued earlier this year.



CHAIRMAN JOHNSON TESTIFIES ON MORTGAGE
REFORM

NCUA Chairman JoAnn Johnson testified on October 24, 2007,
on mortgage reform before the House Financial Services
Committee.     The Legislative Proposals on Reforming

                              11                                                                12
  OIG Semiannual Report                     March 2008             OIG Semiannual Report                      March 2008


                                                                 LOANS INCREASED
    FEDERALLY INSURED CREDIT UNION
              HIGHLIGHTS                                         Loan growth of 6.58 percent resulted in an increase in total
                                                                 loans by $32.54 billion. Total net loans of $527 billion
                                                                 comprise 70 percent of credit union assets.       Real estate
Credit unions submit quarterly call reports (financial and       loans increased 20.94 percent. First mortgage real estate
operational data) to the NCUA. An NCUA staff assessment of       loans are the largest single asset category with $179.44
the December 31, 2007, quarterly call reports submitted by       billion accounting for 34.05 percent of all loans. Other real
all federally insured credit unions found that key financial     estate loans of $91.67 billion account for 17.4% of all loans.
indicators were mixed.                                           Used car loans of $89.1 billion were 16.91% of all loans,
                                                                 while new car loans amounted to $86.9 billion or 16.49% of
                                                                 total loans.      Credit card loans totaled $30.12 billion or
KEY FINANCIAL INDICATORS SHOWING CONCERN                         5.72% of total loans and other loans totaled $49.69 billion for
                                                                 9.4% of total loans.
Looking at the December 31, 2007 quarterly statistics for
major balance sheet items and key ratios shows the following
for the nation’s 8,101 federally insured credit unions: assets
grew 6.12 percent; net worth to assets ratio decreased from
11.53 to 11.44 percent; the loan to share ratio increased from
82.23 percent to 83.32 percent; the delinquency ratio
increased from .68 to .93 percent; and credit union return on
average assets decreased from .82 percent to .65 percent.


SAVINGS SHIFTING TO CERTIFICATES OF DEPOSIT

Total insured share accounts increased 5.19 percent. Share
certificates increased 14.42%.     Regular shares comprise
26.63 percent of total share accounts; share certificates
comprise 34.17 percent; money market shares comprise
17.58 percent; and share draft accounts comprise 11.33
percent; and all other share accounts comprise 10.29 percent.




                             13                                                                14
  OIG Semiannual Report                      March 2008             OIG Semiannual Report                       March 2008



           LEGISLATIVE HIGHLIGHTS
                                                                  NCUA made a total of 46 loans for $8 million from the fund
                                                                  through the first 11 months of 2007. This was the largest
                                                                  number of loans ever approved in a single year by the fund.
                                                                  As of November 30, 2007, the CDRLF's total loan portfolio
HOUSE INTRODUCES H.R. 5519, “THE CREDIT UNION
                                                                  reached $13.4 million, its highest total ever. In addition, as of
REGULATORY RELIEF ACT OF 2008”
                                                                  September 30, 2007, the CDRLF funded 307 technical
                                                                  assistance grants to low-income credit unions.
On March 3, 2008, Reps. Barney Frank (D-Mass.), Paul
Kanjorski (D-Pa.), and Ed Royce (R-Calif.) introduced a new       NCUA JOINS OTHER AGENCIES IN RELEASING
credit union bill (H.R. 5519), which would offer regulatory       PROPOSED REVISIONS TO QUESTIONS AND ANSWERS
relief in 12 areas, but does not go as far as the Credit Union    REGARDING FLOOD INSURANCE
Regulatory Improvements Act (CURIA, H.R. 1537). The bill
was introduced four days before a scheduled House Financial
                                                                  To help financial institutions meet their responsibilities under
Services Committee hearing on CURIA. Rep. Frank is the
                                                                  Federal flood insurance legislation and to increase public
chairman of that committee and Rep. Kanjorski heads that
                                                                  understanding of their flood insurance regulations, the NCUA
panel’s subcommittee on capital markets. Although it touches
                                                                  joined federal bank, thrift and Farm Credit System regulatory
on many areas of CURIA, the new bill does not contain
                                                                  agencies in requesting public comment on new and revised
language to increase the credit union member business
                                                                  interagency questions and answers regarding flood insurance.
lending ceiling or to transform prompt corrective action into a
                                                                  The Federal Register notice and request for comment was
more risk-based system. H.R. 5519 is entitled the Credit
                                                                  issued on March 21, 2008. The Interagency Questions and
Union Regulatory Relief Act (CURRA) of 2008.”
                                                                  Answers Regarding Flood Insurance were first published in
                                                                  1997 under the auspices of the Federal Financial Institutions
BUSH PROPOSES $1,000,000 FOR CDRLF PROGRAMS
                                                                  Examination Council. NCUA and the other agencies are
                                                                  proposing new questions and answers, as well as substantive
On February 4, 2008, President Bush released his proposed         modifications to questions and answers pertaining to
federal budget for fiscal year 2009. He proposed $1,000,000       construction loans and condominiums. The agencies are also
for the Community Development Revolving Loan Fund                 proposing new questions and answers in a number of areas,
(CDRLF) program.        NCUA administers the CDLRF, which is      including second lien mortgages, the imposition of civil money
used to provide low-interest loans and technical assistance       penalties, and loan syndications/ participations. Finally the
grants to low income designated credit unions. These small        agencies are proposing to revise and reorganize certain
credit unions offer services like income tax preparation and      existing questions and answers to clarify areas of potential
financial literacy classes. Within NCUA, the Office of Small      misunderstanding and to provide clearer guidance to users.
Credit Union Initiatives administers the fund.



                             15                                                                 16
  OIG Semiannual Report                      March 2008              OIG Semiannual Report                     March 2008


The agencies invited comment on the proposed changes and,
more generally, on other issues regarding compliance with the         OFFICE OF THE INSPECTOR GENERAL
Federal flood insurance statutes and regulations.
                                                                   The Office of the Inspector General was established at the
NCUA, FINANCIAL REGULATORY AGENCIES ISSUE                          NCUA in 1989 under the authority of the Inspector General
FINAL RULES ON AFFILIATE MARKETING                                 Act of 1978, as amended in 1988. The staff consists of the
                                                                   Inspector General, Counsel to the Inspector General,
                                                                   Assistant Inspector General for Audits, Director of
On January 1, 2008, final rules issued by the NCUA and the
                                                                   Investigations, two Senior Auditors, Senior Information
other Federal financial regulatory agencies (Federal Reserve
                                                                   Technology Auditor, and Office Manager.
Board, Federal Deposit Insurance Corporation, and the
Department of the Treasury’s Office of the Comptroller of the
                                                                   The Inspector General reports to, and is under the general
Currency and Office of Thrift Supervision) went into effect that
                                                                   supervision of, the NCUA Board. The Inspector General is
provide consumers with an opportunity to “opt out” before a
                                                                   responsible for:
financial institution uses information provided by an affiliated
company to market its products and services to the consumer.
The final rules on affiliate marketing implement section 214 of
                                                                   1. Conducting, supervising, and coordinating audits and
                                                                   investigations of all NCUA programs and operations;
the Fair and Accurate Credit Transactions Act of 2003, which
amends the Fair Credit Reporting Act (FCRA).
                                                                   2. Reviewing policies and procedures to ensure efficient and
                                                                   economic operations as well as preventing and detecting
The final rules generally prohibit a financial institution from
                                                                   fraud, waste, and abuse;
using certain information received by an affiliate to make a
solicitation to a consumer unless the consumer is given notice
and a reasonable opportunity to opt out of such solicitations,
                                                                   3. Reviewing      existing and proposed legislation and
                                                                   regulations to evaluate their impact on the economic and
and the consumer does not opt out. Nothing in the final rules
                                                                   efficient administration of agency programs; and
supersedes or amends a consumer’s existing right to opt out
of the sharing of non-transaction or experience information
under section 603(d) of the FCRA. The final rules also
                                                                   4. Keeping the NCUA Board and the Congress apprised of
                                                                   significant findings and recommendations.
implement the statutory exceptions to the affiliate marketing
notice and opt out requirement.        All covered entities must
comply with the rules no later than October 1, 2008.
Substantially similar rules will be issued by the Federal Trade
Commission and the Securities and Exchange Commission.




                              17                                                                18
OIG Semiannual Report                               March 2008                 OIG Semiannual Report                      March 2008




                                                                                                AUDIT ACTIVITY

                                                                             AUDIT REPORTS ISSUED
                  William DeSarno

                         Inspector
                          General                                            OIG-07-10 – October 2, 2007
                                                                             OFFICIAL PERSONNEL FOLDERS
                                                                             Official Personnel Folders (OPFs) contain records that
                                                                             document an individual employee’s Federal government
                                                                             employment history.         The OPF follows an employee
            Sharon
           Regelman
                                                                             throughout his or her Federal career. Due to the importance
                                                                             of OPFs, the current Federal emphasis on protecting
        Office Manager
                                                                             Personally Identifiable Information (PII), and the attention to
                                                                             this issue by the Office of Management and Budget (OMB), as
                                                                             part of the President’s Management Agenda, the Office of
                                                                             Inspector General (OIG) added this survey review to its 2007
                                                                             Annual Performance Plan. Our objectives were to determine
Sharon Separ          Anne Voegele          Jim Hagen
                                                                             whether NCUA is accurately maintaining and storing OPFs, and
Counsel to the          Director of       Assistant IG for                   to evaluate the agency’s ability to migrate to an electronic OPF
     IG               Investigations           Audits
                                                                             system. Our primary office of review was the NCUA Office of
                                                                             Human Resources (OHR).

                                                                             We Reviewed OPM Requirements and Guidance as well as
                                                                             NCUA OHR Internal Controls
                      Charles                Dwight          Marvin Stith,
                  Funderburk, CPA         Engelrup, CPA       CPA, CISA

                      Senior Auditor      Senior Auditor      Senior IT
                                                                             We concluded that the NCUA OHR is aware of OPM’s
                                                               Auditor       regulatory requirements and guidance for compiling and
                                                                             maintaining OPFs. However, OHR reported that, with the
                                                                             exception of its Physical Security Plan (security plan) which
                                                                             addresses disaster recovery planning, it has no written internal
                                                                             control procedures, such as document checklists or
                                                                             management monitoring reports, to ensure that OHR staff
                                                                             members are fully complying with OPM requirements. We


                                     19                                                                    20
  OIG Semiannual Report                      March 2008             OIG Semiannual Report                            March 2008


                                                                  We also determined that NCUA dose not have a completed
determined that OHR can, by developing its own internal           electronic image of OPFs for the purpose of disaster recovery.
control procedures, ensure that it is better adhering to OPM      Our report contains one recommendation for operational
requirements and guidance and, consequently, ensure the           improvement in this area.
accuracy and completeness of the OPFs it maintains.
                                                                  NCUA management agreed with all recommendations and has
We Reviewed NCUA’s Maintenance of OPFs and Performed a            or is in the process of taking corrective action to address the
Sample Review of 30 OPFs                                          recommendations.

We concluded that OHR could improve its maintenance of            OIG-07-11 – November 15, 2007
OPFs. Specifically, we observed that OHR needs to develop         FOLLOW-UP REVIEW OF NCUA ENCRYPTION
formal internal control procedures to ensure that OHR staff is    The National Credit Union Administration (NCUA) Office of
maintaining OPF documentation in a complete and accurate          Inspector General (OIG) performed an audit to determine if
manner.      This is especially important as OHR considers        NCUA is adequately protecting sensitive electronic data. To
transitioning in the future to an electronic OPF system. During   determine whether the NCUA adequately protects sensitive
our sample review, we observed that the documentation             electronic data, we interviewed a judgmental sample of
maintained in OPFs for the past five years was generally          examiners and reviewed the examiners’ computer equipment 1.
complete. However, in this same sample, we found that for         We also interviewed the Chief Information Officer and
the complete time frame of the OPF, over 50% of the OPFs          reviewed policies and procedures related to protecting
were either incomplete or contained errors. Consequently, our     sensitive data.
report contains three recommendations for operational
improvement. Management has already or is in the process of       We determined that the NCUA is adequately protecting
taking corrective action to address our recommendations.          sensitive electronic data. The examiners were primarily saving
                                                                  exam-related files to their encrypted ‘My Documents’ folder as
We Reviewed NCUA Plans and Ability to Transition to               advised by the OCIO. In addition, we did not identify any
Electronic OPF; eOPF; and Image Now                               unencrypted exam files on the NCUA-issued hard drives.
                                                                  However, we determined the NCUA could make improvements
We concluded that NCUA does not now have electronic Official      to better protect this data. Specifically, while 94 percent of
Personnel Folders (OPF) or the current ability to transition to   the exam files we identified on the laptops we reviewed were
an electronic OPF sanctioned by the Office of Personnel           encrypted, some examiners had potentially sensitive
Management (OPM). We observed the OHR is interested in            unencrypted credit union data on their computer equipment.
converting to electronic OPFs, and has taken steps to obtain      In addition, there was unrestricted access to sensitive credit
information preparatory to selection of the eOPF system
approved by and supported by OPM.                                    1
                                                                      Computer equipment includes NCUA-issued laptops, external
                                                                     hard drives, and USB flash drives, and unencrypted media such as
                                                                     USB flash drives and CDs.


                             21                                                                    22
  OIG Semiannual Report                      March 2008              OIG Semiannual Report                      March 2008


union data on the NCUA intranet. We also learned that while        issued an unqualified opinion on the Share Insurance
the encryption technology the NCUA used adequately                 Fund’s financial statements. The Fund’s total assets for 2007
protected sensitive data if used as guided, the NCUA OCIO          were $7.5 billion, up from $7.1 billion in 2006.
was planning to implement a strategy to better protect
electronic PII and other sensitive data.                           THE CENTRAL LIQUIDITY FACILITY (OIG-08-03) was
                                                                   established as a mixed ownership government corporation
Our report included five recommendations to NCUA to improve        managed by the NCUA Board to improve general financial
the security, access and storage of sensitive credit union data.   stability by meeting the liquidity needs of credit unions. The
NCUA management agreed with all five recommendations and           auditors issued an unqualified opinion on the Central
is in the process or already has taken corrective action to        Liquidity Facility’s (CLF) financial statements. The CLF’s total
address the recommendations.                                       assets for 2007 were $1.7 billion, up from $1.6 billion in 2006.

OIG-08-01, 02, 03, & 04 – February 28, 2008                        THE COMMUNITY DEVELOPMENT REVOLVING LOAN FUND’S
NCUA FINANCIAL STATEMENTS                                          (OIG-08-04) purpose is to stimulate economic activities in
Our contracting audit firm, Deloitte & Touche LLP, issued          the communities served by low-income credit unions. This in
opinions on the 2007 financial statements of the National          turn will result in increased income, ownership and
Credit Union Administration Operating Fund, National Credit        employment opportunities for low-wealth residents and other
Union Share Insurance Fund, the Central Liquidity Facility, and    economic growth.       The auditors issued an unqualified
the Community Development Revolving Loan Fund. The                 opinion on the Fund’s financial statements. The Community
auditors found that the financial statements presented fairly      Development Revolving Loan Fund’s total assets for 2007 were
the financial position of the agency’s funds as of December 31,    $16.3 million, up from $16.1 million in 2006.
2007. The firm issued its opinions on February 13, 2008.
                                                                   The financial auditors did not find any matters considered to
THE NCUA OPERATING FUND (OIG-08-01) was established                be material weaknesses in their review of the Funds’ internal
as a revolving fund managed by the NCUA Board for the              control structures pertinent to financial reporting. However,
purpose of providing administration and service to the federal     during the performance of the audit, several observations and
credit union system. The auditors issued an unqualified            recommendations were presented relating to internal control
opinion on the Operating Fund’s financial statements. The          over financial reporting, and certain other accounting,
funds total assets for 2007 were $60.8 million, down from          administrative, and operating matters.
$63.5 million in 2006.
                                                                   OIG-08-05 – March 21, 2008
THE NATIONAL CREDIT UNION SHARE INSURANCE FUND (OIG-               LOW INCOME CREDIT UNION GRANT AND LOAN REVIEW
08-02) was established as a revolving fund managed by the          The NCUA Office of Inspector General (OIG) performed a
NCUA Board to insure member share deposits in all Federal          review to determine the following: (1) how loan and TAG
credit unions and qualifying state credit unions. The auditors     funds under the CDRLF program are awarded; (2) whether the

                              23                                                                 24
  OIG Semiannual Report                       March 2008              OIG Semiannual Report                      March 2008


loans and grants are awarded competitively; and (3) whether         AUDITS IN PROGRESS
the loan and grant program contingencies are being met.

In addition to meeting basic eligibility standards, both CDRLF
loan and grant applicants must meet additional regulatory and       REVIEW OF SMART CARDS
statutory criteria and provide specific information to qualify as
award participants. OSCUI staff analyzes the applications to        The Office of Inspector General is initiating a review of NCUA’s
ensure that standards and criteria are met. In the cases we         implementation of Smart Cards. This review is part of the
reviewed, all participating credit unions that received loan and    Office of Inspector General’s 2008 Performance Plan.
grant awards met the requisite eligibility requirements.
Subsequent to the award of a CDRLF loan or grant,                   On August 27, 2004, the President signed Homeland Security
participating credit unions must file annual progress reports;      Presidential Directive – 12 (HSPD-12) - Policy for a Common
subsequent to the award of a CDRLF grant, participating credit      Identification Standard for Federal Employees and
unions must file an outcome summary report and an expense           Contractors. HSPD -12 provides policy to enhance security,
reimbursement request upon completion of the award project.         increase Government efficiency, reduce identity fraud, and
                                                                    protect personal privacy by establishing a mandatory,
Although we found that both the CDRLF loan and TAG                  Government-wide standard for secure and reliable forms of
programs generally meet the objectives of the CDRLF, we             identification issued by the Federal Government to its
made     fourteen   recommendations     for   areas    where        employees and contractors (including contractor employees).
improvement could be made. The areas for improvement                "Secure and reliable forms of identification" for purposes of
were concentrated in the award application and analysis             this directive means identification that (a) is issued based on
process and in the post award monitoring of CDRLF loans and         sound criteria for verifying an individual employee's identity;
grants. Management generally agreed with most of the                (b) is strongly resistant to identity fraud, tampering,
reports recommendations and has already taken action to             counterfeiting, and terrorist exploitation; (c) can be rapidly
address a number of the report’s recommendations in its 2007        authenticated electronically; and (d) is issued only by
grant and loan process.                                             providers whose reliability has been established by an official
                                                                    accreditation process. On August 5, 2005, OMB issued a
                                                                    memorandum that provided instructions to agencies for
                                                                    implementing the Directive and FIPS 201. HSPD-12 requires
                                                                    agencies to conduct a background investigation, adjudicate
                                                                    the results, and issue identity credentials to their employees
                                                                    and contractors who require long-term access to federally
                                                                    controlled facilities or information systems. However, it does
                                                                    not apply to individuals under contract to a department or
                                                                    agency, requiring only intermittent access to federally


                              25                                                                  26
  OIG Semiannual Report                      March 2008             OIG Semiannual Report                     March 2008


controlled facilities. Our objective is to assess the status of   with Government Auditing Standards for performance audits.
the NCUA’s implementation of the Smart Card program.              Our objectives are to determine (1) the causes of the credit
                                                                  union’s failure and resulting material loss to the share
REVIEW OF FINANCIAL ACCOUNTING SOFTWARE CONVERSION                insurance fund; and (2) assess the NCUA’s supervision of the
NCUA’s current financial accounting software is expected to be    institution, including implementation of the Prompt Corrective
unsupported by the vendor within the next one to two years.       Action requirements of the FCU Act.
Therefore the agency is in the process of selecting new
financial accounting software. The OCFO believes the agency
needs a system which will support the federal standard            SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH
general ledger (SGL) and a system which should be hosted          CORRECTIVE ACTION HAS NOT BEEN COMPLETED
off-site. The total estimated cost is over $5 million. The
OCFO proposed $2.7 million in the 2008 NCUA capital budget        As of March 31, 2008, there were no significant audit
with the remainder incorporated into the 2009 capital budget.     recommendations on reports issued over six months ago that
The objective of our review is: Does NCUA have an adequate        have not been either fully implemented or are in the process
methodology for the acquisition of financial accounting           of implementation.
software?

MATERIAL LOSS REVIEWS OF HURON RIVER AND NORLARCO
The FCU Act provides that a review is required when the share
insurance fund (Fund) incurs a material loss. For purposes of
determining whether the Fund has incurred a material loss
with respect to an insured credit union such that the Inspector
General (OIG) of the NCUA Board (Board) must make a report,
a loss is material if it exceeds the sum of $10,000,000, and an
amount equal to 10 percent of the total assets of the credit
union at the time at which the Board initiated assistance under
section 208 or was appointed liquidating agent.

On February 1, 2008, the OIG was notified by NCUA that two
credit unions (Huron River and Norlarco) losses had exceeded
the requirements triggering a material loss review by the OIG.
The scope of this audit will include an analysis of the credit
union’s transactions and activities to determine the causes of
failure and a review of the state and/or NCUA supervision of
the credit union. The audit will be performed in accordance

                             27                                                                28
  OIG Semiannual Report                       March 2008             OIG Semiannual Report                     March 2008


                                                                   information received from any of these sources is referred to
            INVESTIGATIVE ACTIVITY                                 as a hotline contact. The OIG hotline program is handled by
                                                                   our Office Manager, under the direction of our Director of
                                                                   Investigations. The majority of hotline contacts are from
In accordance with professional standards and guidelines           consumers seeking help with a problem with a credit union.
established by the Department of Justice, the OIG conducts         These contacts are referred to the appropriate NCUA regional
investigations of criminal, civil, and administrative wrongdoing   office for assistance.    During this reporting period, we
involving agency programs and personnel. Our investigative         referred 193 consumer complaints to regional offices. Also
program focuses on activities designed to promote economy,         during this reporting period, we referred one allegation back
effectiveness, and efficiency, as well as fighting fraud, waste,   to agency management for action.
and abuse in agency programs. In addition to our efforts to
deter misconduct and promote integrity awareness among             INVESTIGATIONS
agency employees, we investigate referrals and direct reports
of employee misconduct. Investigations may involve possible
violations of regulations regarding employee responsibilities
                                                                   FALSE STATEMENTS
and conduct, Federal criminal law, and other statutes and
regulations pertaining to the activities of NCUA employees.
                                                                   During this reporting period, the OIG received an allegation
Moreover, we receive complaints from credit union members          that an NCUA employee may have made false statements and
and officials that involve NCUA employee program                   false representations on her time and attendance
responsibilities. We examine these complaints to determine         documentation. The original allegation and supporting
whether there is any indication of NCUA employee                   documentation indicated that the abuse was substantive.
misconduct. If not, we refer the complaint to the appropriate      The OIG investigated and found the more serious allegations
regional office for response, or close the matter if contact       to be untrue based on faulty monitoring equipment which
with the regional office indicates that the complaint has          resulted in inaccurate documentation. The remaining issues
already been appropriately handled.                                were referred back to the employee’s office for management
                                                                   action.

OIG HOTLINE CONTACTS
                                                                   ABUSE OF AUTHORITY
The OIG maintains a toll free hotline to enable employees and
citizens to call with information about waste, fraud, abuse or     The OIG received an allegation that an NCUA examiner had
mismanagement involving agency programs or operations.             abused his authority and had engaged in an inappropriate
We also receive complaints through an off-site post office         relationship with a credit union employee. That investigation
box, from electronic mail, and facsimile messages.          All    is ongoing.


                              29                                                                30
  OIG Semiannual Report                     March 2008               OIG Semiannual Report                        March 2008


SEXUAL HARASSMENT                                                 LEGISLATIVE AND REGULATORY REVIEWS
During the last reporting period, the OIG reported on an
ongoing investigation that an NCUA Examiner sexually              Section 4(a) of the Inspector General Act requires the
harassed several women. The results of that investigation         Inspector General to review existing and proposed legislation
determined that the women in question had participated in an      and regulations relating to the programs and operations of
electronic mail exchange with the employee which contained        the NCUA and to make recommendations concerning their
sexually suggestive language. Additionally, the investigation     impact. Moreover, we routinely review proposed agency
revealed that the employee’s supervisors had gone to great        instructions and other policy guidance, in order to make
lengths to obtain the complaint from one of the women.            recommendations concerning economy and efficiency in the
Based on our review of the relevant materials and the             administration of NCUA programs and operations and the
circumstances that surround the development and reporting         prevention and detection of fraud, waste and abuse.
of the original complaint, the OIG determined that there was
insufficient evidence to either substantiate or disprove an       During the reporting period, the OIG reviewed 18 items,
allegation of sexual harassment.                                  including proposed and final legislation and regulations,
                                                                  comments to proposed regulations, and agency Interpretive
                                                                  Rulings and Policy Statements.
OFFICE OF SPECIAL COUNSEL REQUEST

The OSC referred to the OIG a whistleblower allegation            SUMMARY OF STATUTES AND REGULATIONS REVIEWED
concerning the agency’s policies and practices related to            Legislation/E.O.                           Title
documenting and compensating employee hours of work.                     H.R. 4791              “Federal Agency Data Protection Act”
The OIG conducted an initial investigation on the matter and             H.R. 5519             “The Credit Union Regulatory Relief Act
provided a report to the Office of Special Counsel.                                                            Of 2008”
                                                                  Regulations/Rulings                             Title
                                                                 12 CFR Part 41; 12 CFR       Joint Final Rule and Guidelines: “ Identity
                                                                  717; 12 CFR Part 222;     Theft Red Flags and Address Discrepancies
                                                                12 CFR Parts 334 and 364;        Under the Fair and Accurate Credit
                                                                    12 CFR Part 571                        Transactions Act”
                                                                    12 CFR Part 797         Final Rule: “Procedures for Debt Collection”
                                                                   12 CFR Part 701.23        Final Rule: “Purchase, Sale and Pledge of
                                                                                                         Eligible Obligations”
                                                                    12 CFR Part 717             Final Rule: “Identity Theft Red Flags
                                                                                                  And Address Discrepancies under
                                                                                                            The FACT Act”



                             31                                                                  32
 OIG Semiannual Report                    March 2008                    OIG Semiannual Report                                      March 2008


 12 CFR Part 717          Final Rule: “Fair Credit Reporting:
                                    Affiliate Marketing”
 12 CFR Part 701    Final Rule: “Reincorporation of FCU By-laws
                                 Into NCUA Regulations”                                                      TABLE I
 12 CFR Part 711           Final Rule: “Management Official                          INSPECTOR GENERAL ISSUED REPORTS
                             Interlocks Threshold Change”                                 WITH QUESTIONED COSTS
12 CFR Parts 708a         Advance Notice of Proposed Rule-                                                             Number of   Questioned Unsupported
    and 708b         making and Request for Comment (ANPR):                                                             Reports      Costs       Costs
                       “Mergers, Conversion from Credit Union
                                                                               For which no management decision
                    Charter, and Account InsuranceTermination”
                                                                   A.             had been made by the start
 12 CFR Part 797    Final Rule: “Procedures for Debt Collection”
                                                                                    of the reporting period.              0           $0          $0
  FIN 2008-R001         Financial Crimes Enforcement Network
                             (FinCen) administrative ruling:       B.                    Which were issued
                         “Reporting of Currency Transactions                      during the reporting period.            0            0           0
                          For Sole Proprietorships and Legal                             Subtotals (A + B)                0            0
                           Entities Operating Under a “Doing
                                   Business As” Name               C.           For which management decision
                                                                          was made during the reporting period.           0            0           0
   IRPS 08-1          Proposed Interpretative Ruling and Policy         (i)      Dollar value of disallowed
                        Statement 08-1: “Guidance Regarding                      costs                                    0            0           0
                       Prohibitions Imposed by Section 205(d)           (ii)        Dollar value of
                            Of the Federal Credit Union Act                           costs not disallowed                0            0           0
 12 CFR part 760        Proposed Interagency Questions and                     For which no management decision
                         Answers Regarding Flood Insurance         D.                    has been made by
 12 CFR Part 740         Proposed Rulemaking: “The Official                      the end of the reporting period.         0            0           0
                                 Advertising Statement”                        Reports for which no management
12 CFR Parts 708a     “Mergers, Conversions from Credit Union      E.                    decision was made
    And 708b        Charter, and Account Insurance Termination-                  within six months of issuance.           0            0           0
                                       Comments
 12 CFR Part 717    Interagency Notice of Proposed Rulemaking:      Questioned costs are those costs the OIG has questioned because of
                      Procedures to Enhance the Accuracy and        alleged violations of laws, regulations, contracts, or other agreements;
                         Integrity of Information Furnished to      findings which at the time of the audit are not supported by adequate
                             Consumer Reporting Agencies            documentation; or the expenditure for the intended purpose is unnecessary
                     Joint Interagency Guidance on Garnishment      or unreasonable.
                      Of Federal Benefit Payments-Comments          Unsupported costs (included in "Questioned Costs") are those costs the OIG
                                                                    has questioned because of the lack of adequate documentation at the time
                                                                    of the audit.




                          33                                                                                      34
  OIG Semiannual Report                                   March 2008           OIG Semiannual Report                                     March 2008




                                                                                                           TABLE III
                                  TABLE II                                                     SUMMARY OF OIG ACTIVITY
     INSPECTOR GENERAL ISSUED REPORTS WITH
                                                                                     OCTOBER 1, 2007 THROUGH MARCH 31, 2008
 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                         Number of   Dollar
                                                                                               PART I – AUDIT REPORTS ISSUED
                                                          Reports    Value
                                                                              Report                                                             Date
                                                                              Number                           Title                            Issued
           For which no management decision had
  A.
       Been made by the start of the reporting period.      0         $0                     NCUA’s Risk Focused Examinations Tracking
                                                                              OIG-07-10                                                        07/10/2007
                                                                                                Identified Documents of Resolution
  B.    Which were issued during the reporting period.      0          0
                                                                              OIG-07-11                 Real Estate Lending                    09/05/2007
                        Subtotals (A + B)                   0          0
                                                                                                  NCUA Financial Statement Audit:
                                                                              OIG-08-01                                                        02/28/2008
                                                                                                    The NCUA Operating Fund
         For which management decision was made
  C.
                   during the reporting period.             0          0                          NCUA Financial Statement Audit:
                                                                              OIG-08-02                                                        02/28/2008
                                                                                           The National Credit Union Share Insurance Fund
         (i)          Dollar value of recommendations                                             NCUA Financial Statement Audit:
                   agreed to by management.                N/A        N/A     OIG-08-03             The Central Liquidity Facility             02/28/2008


         (ii)         Dollar value of recommendations                                            NCUA Financial Statement Audit:
                                                                              OIG-08-04                                                        02/28/2008
                  not agreed to by management.             N/A        N/A                 The Community Development Revolving Loan Fund


                                                                              OIG-08-05   Low Income Credit Union Grant and Loan Review        03/21/2008
        For which no management decision was made
  D.
                by the end of the reporting period.         0          0
                                                                                     PART II – AUDITS IN PROGRESS             (as of March 31, 2008)
                                                                                                                Review of Smart Cards
        For which no management decision was made
  E.                                                                                              Review of Financial Accounting Software Conversion
                  within six months of issuance.            0          0
                                                                                                  Material Loss Reviews of Huron River and Norlarco
Recommendations that "Funds to be Put to Better Use" are those OIG
recommendations that funds could be used more efficiently if management
took    actions    to     reduce    outlays,      de-obligate    funds from
programs/operations, avoid unnecessary expenditures noted in pre-award
reviews of contracts, or any other specifically identified savings.




                                         35                                                                        36
 OIG Semiannual Report                                 March 2008




 INDEX OF REPORTING REQUIREMENTS
SECTION                    DATA REQUIRED                           PAGE REF
 4(a)(2)              Review of Legislation and Regulations           32
 5(a)(1)          Significant Problems, Abuses, or Deficiencies       20
                Relating to the administration of programs and
               Operations disclosed during the reporting period.
 5(a)(3)         Recommendations with Respect to Significant          20
                        Problems, Abuses, or Deficiencies.
 5(a)(3)           Significant Recommendations Described in           28
                     Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed.
 5(a)(4)         Summary of Matters Referred to Prosecution          None
                   Authorities and Prosecutions, Which Have
                                      Resulted.
 5(a)(5)        Summary of Each Report to the Board Detailing        None
                  Cases Where Access to All Records Was Not
                 Provided or Where Information Was Refused.
 5(a)(6)             List of Audit Reports Issued During the          36
                                  Reporting Period.
 5(a)(7)          Summary of Particularly Significant Reports.        20
 5(a)(8)             Statistical Tables on Audit Reports With         34
                                 Questioned Costs.
 5(a)(9)             Statistical Tables on Audit Reports With         35
                    Recommendations That Funds Be Put To
                                     Better Use.
5(a)(10)       Summary of Each Audit Report Issued Before the        None
           Start Of the Reporting Period for Which No Management
             Decision Has Been Made by the End of the Reporting
                                       Period.
5(a)(11)           Description and Explanation of Reasons for        None
                 any Significant Revised Management Decision
                       Made During the Reporting Period.
5(a)(12)       Information Concerning Significant Management         None
                 Decisions With Which the Inspector General is
                                  in Disagreement.




                                    37
